                                                               United States Attorney
                                                               District of New Jersey

FOR IMMEDIATE RELEASE                                  CONTACT:       Rebekah Carmichael
July 29, 2013                                                         Matthew Reilly
www.justice.gov/usao/nj                                               Office of Public Affairs
                                                                      (973) 645-2888


      STARS OF ‘REAL HOUSEWIVES OF NEW JERSEY’ TELEVISION SERIES
                  INDICTED ON FRAUD AND TAX CHARGES

       NEWARK, N.J. – Two of the stars of the Bravo television show “The Real Housewives of
New Jersey” were charged today in a conspiracy to defraud lenders and illegally obtain mortgages
and other loans as well as allegedly hiding assets and income during a bankruptcy case, U.S.
Attorney Paul J. Fishman announced.

       Teresa Giudice, 41, and her husband, Giuseppe “Joe” Giudice, 43, both of Towaco, N.J.,
were charged with conspiracy to commit mail and wire fraud, bank fraud, making false statements
on loan applications and bankruptcy fraud in a 39-count indictment returned today by a federal
grand jury. The indictment also charges Giuseppe Giudice with failure to file tax returns for tax
years 2004 through 2008, during which time he allegedly earned nearly $1 million

        “The indictment returned today alleges the Guidices lied to the bankruptcy court, to the
IRS and to a number of banks,” U.S. Attorney Fishman said. “Everyone has an obligation to tell
the truth when dealing with the courts, paying their taxes and applying for loans or mortgages.
That’s reality.”

        “The Federal Deposit Insurance Corporation Office of Inspector General is pleased to join
the United States Attorney for the District of New Jersey and our law enforcement colleagues in
announcing this indictment today,” Special Agent in Charge A. Derek Evans said. “We are
committed to our partnerships with federal, state, and local law enforcement to address mortgage
fraud cases throughout the country. The American people need to be assured that their government
is working to ensure integrity in the financial services and housing industries and that those
involved in criminal misconduct that undermines that integrity will be held accountable.

         “The privilege of living well in the United States carries certain real responsibilities,
including filing tax returns when required and paying the correct amount of tax,” Shantelle P.
Kitchen, Special Agent in Charge, IRS-Criminal Investigation, Newark Field Office, said.
“Today’s indictment alleges the Giudices did not live up to their responsibilities by failing to file
tax returns, falsifying loan applications and concealing assets in their bankruptcy petition. The
reality is that this type of criminal conduct will not go undetected and individuals who engage in
this type of financial fraud should know they will be held accountable.”

       According to the Indictment:

                                                 -1-
        From September 2001 through September 2008, Giuseppe and Teresa Giudice allegedly
engaged in a mail and wire fraud conspiracy in which they submitted to lenders fraudulent
mortgage and other loan applications and supporting documents in order to obtain mortgages and
other loans. The Giudices falsely represented on loan applications and supporting documents that
they were employed and/or receiving substantial salaries when, in fact, they were either not
employed or not receiving such salaries.

       For example, in September 2001, Teresa Giudice applied for a mortgage loan of $121,500
for which she submitted a loan application that falsely claimed that she was employed as an
executive assistant. She also submitted fake W-2 Forms and fake paystubs purportedly issued by
her employer. The indictment also charges specific instances where the Giudices committed bank
fraud and loan application fraud in the course of obtaining loans from several banks.

        On Oct. 29, 2009, the Giudices filed a petition for individual Chapter 7 bankruptcy
protection in U.S. Bankruptcy Court in Newark. Over the next few months, they filed several
amendments to the bankruptcy petition. As part of the bankruptcy filings, the Giudices were
required to disclose to the United States Trustee, among other things, assets, liabilities, income,
and any anticipated increase in income. The indictment alleges that the Giudices intentionally
concealed businesses they owned, income they received from a rental property, and Teresa
Giudice’s true income from the television show “The Real Housewives of New Jersey,” website
sales, and personal and magazine appearances. The Giudices concealed their anticipated increase
in income from the then-upcoming Season Two of the Bravo television show. The Giudices are
charged with multiple counts of bankruptcy fraud for concealing and making false oaths and
declarations about the assets and income during their bankruptcy case.

       The indictment also alleges that during tax years 2004 through 2008, Giuseppe Giudice
received income totaling $996,459, but did not file tax returns for those years.

         The conspiracy to commit mail and wire fraud count carries a maximum potential penalty
of 20 years of in prison and a $250,000 fine. The bank fraud and loan application fraud counts each
carry a maximum potential penalty of 30 years in prison and a $1 million fine. The bankruptcy
fraud counts each carry a maximum penalty of five years in prison and a $250,000 fine. The failure
to file a tax return counts each carry a maximum penalty of one year in prison and a $100,000 fine.

       U.S. Attorney Fishman credited special agents of the Federal Deposit Insurance
Corporation, Office of Inspector General, New York Region, under the direction of Special Agent
in Charge A. Derek Evans; special agents of IRS-Criminal Investigation, under the direction of
Special Agent in Charge Shantelle P. Kitchen; and Region 3 U.S. Trustee Roberta DeAngelis and
the Newark office of the U.S. Trustee, with the investigation which led to today’s indictment.

      The government is represented by Assistant U.S. Attorneys Jonathan W. Romankow and
Rachael Honig of the U.S. Attorney’s Office, Criminal Division in Newark.

       The charges and allegations contained in the indictment are merely accusations, and the
defendants are considered innocent unless and until proven guilty

13-314                              ###
Defense counsel:
Giuseppe Giudice: Miles Feinstein Esq., Paterson
Teresa Giudice: Henry E. Klingeman Esq., Newark
                                              -2-
